APPENDIX

APPENDIX TAB A:
JUNE 15, 2018 REPORT AND
RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
(Fifth Cir. ROA.272-300)

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 1 of 29 PageID #: 2657

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
CYNTHIA A. HUDSON, #1696397

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 2:17cv216

REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Petitioner Cynthia Ann Hudson, through counsel, filed this petition for writ of habeas
corpus under 28 U.S.C. § 2254 challenging her Cass County conviction. The cause of action was
referred for findings of fact, conclusions of law, and recommendations for the disposition of the
petition.
I. Procedural Background
A jury convicted Hudson of capital murder and she was sentenced to life imprisonment
without the possibility of parole. The Sixth District Court of Appeals reversed her conviction,
finding that she was entitled to a manslaughter instruction. See Hudson v. State, 366 S.W.3d 878
(Tex. App.—Texarkana 2012). The Texas Court of Criminal Appeals then reversed the appellate
court, remanding the case back to the appellate court to determine whether the evidence supported
other “greater” lesser-included offenses. See Hudson v. State, 394 S.W.3d 522 (Tex. Crim. App.
2013). On remand, the appellate court affirmed her conviction—finding that (1) felony murder,
based on felony injury to a child, was indeed a lesser-included offense of capital murder as
charged; (2) sufficient evidence existed to warrant an instruction on felony murder; and (3)
evidence did not establish recklessness, which did not entitle Hudson to a jury instruction on
manslaughter. See Hudson v. State, 415 S.W.3d 891, 893; 896-97 (Tex. App.—Texarkana 2013).
Subsequently, the Texas Court of Criminal Appeals affirmed that judgment. Hudson “was
not entitled to a lesser-included instruction on manslaughter because the proof upon which she
1
19-40533.272

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 2 of 29 PageID #: 2658

relied was also sufficient to prove another, greater lesser-included offense of capital murder, felony
murder based on felonious injury to a child.” See Hudson v. State, 449 S.W.3d 495, 498 (Tex.
Crim. App. 2014).
Hudson filed a state habeas application in 2016. After a hearing, the trial court issued
findings of fact and conclusions of law, recommending that the habeas application be denied. The
Texas Court of Criminal Appeals then denied her application in 2017 based on the trial court’s
findings after the hearing. Hudson then filed this federal petition in March 2017.
II. Factual Background
While the name of the deceased victim is Samuel, for purposes of confidentiality, the
appellate court used pseudonyms for the other minor children referenced. This Court will do the
same. The Sixth Court of Appeals summarized the facts as follows:
Late on the fateful day, Hudson’s husband, William (Bill), called 9-1-1 to report Samuel’s
death, which he initially said was the result of choking. The responding paramedic Tim
Tolleson and first deputy on the scene both were struck by the sight of the dead boy, clad
only in “spotless” briefs, lying in the center of a bare room. The child bore bruising,
“stripes,” from his neck to his feet. Some wounds were fresh; some were partially healed.
By the time Tolleson arrived, rigor mortis had sent in, and Samuel’s body was cold and
stiff. When he asked the parents about the plethora of wounds and marks on the boy’s body,
they explained he had “reactive attachment disorder,” or “RAD” and had a history of selfmutilation. The surviving children were removed that night to the home of the family’s
pastor. When the children’s clothing was delivered to them a day or two later, hidden in
the clothing left for Samuel’s brother Gary, was a note from Hudson suggesting to him that
he had not seen her beat Samuel and telling him to dispose of the note.
A couple of days later, Hudson was found, bleeding, at a roadside park. She had cut her
arms inside the elbows and left a note “for the cops” claiming responsibility for beating
Gary and Samuel, and for “murder[ing]” Samuel.
Gary, Samuel, and Elaine were all blood-siblings adopted by Hudson and Bill. In the few
days between Thanksgiving Day and December 3, 2008, Samuel had been confined to his
room and “fasted,” that is, deprived of food. Gary’s testimony—and his written statement,
also admitted into evidence—regarding the events preceding, and on the afternoon of,
December 3 constituted central evidence at trial. The evidence painted a brutal picture.
Gary testified that, to be released from his room, Samuel needed to “repent” of lustful
thoughts.
2
19-40533.273

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 3 of 29 PageID #: 2659

Starting at or soon after 2:30 p.m., December 3, Hudson beat Samuel periodically, with
various implements. The first implement used to beat Samuel appears to have been a broom
handle. During those early beatings, Samuel reportedly said, “I repent,” but the beatings
continued. When the broom handle broke, Hudson asked Gary to bring a mop with a metal
handle, which ultimately bent under the continued beatings of Samuel. Hudson then sent
Gary out for a red and black metal rake, with which she continued the beatings. The rake
handle apparently bent also, prompting Hudson to emerge from Samuel’s room expressing
the desire for something that would not bend. Hudson’s solution was a white, metal
baseball bat, with which she beat Samuel more. During the beating with the bat, Hudson
reportedly told Samuel to move his head, Samuel said that she was breaking his bones, and
she said, “I told you to move your head.”
After telling Samuel to sit up, Hudson then left the room. When she returned, Samuel was
still lying on the floor. She responded by hitting him with a green computer cord, but he
remained on the floor. She warned him that, if he did not get up, she would get the bat. He
stayed on the floor. She hit him until she got tired. Hudson directed Gary to come into the
room and help stand Samuel up. She removed zip ties from Samuel’s wrists, because his
hands were turning blue. Samuel was having trouble standing up, in spite of Hudson’s
directions that he do so; he said he felt like he was “dying.” Hudson dropped Samuel to the
floor and left him for twenty minutes, only to return with the bat, sit him upright, and
continue the beatings with the bat, hitting him in the chest, arms, and legs, and kicking him
in the ribs.
At some point late in the afternoon, Hudson called Bill, who came home around 7:00
p.m.—much earlier than usual. Gary said the two parents spoke in the “prayer room” (also
referred to as the “book room”) for a time, then Bill went to Samuel’s room; Gary heard a
slapping sound. Hudson then sent the children to the prayer room and instructed them to
pray. A few minutes later, she came in and told the children Samuel had committed suicide.
Gary said this made him mad and sad because he knew Samuel had not committed suicide.
Gary said that Hudson then told him and Bill to “gather up all the tools that she whipped
him with …. the ones that, you know, all the ones that I gotted [sic] for her and the ones
that she used to beat us with.” Gary said he and Bill gathered the implements and weapons
before paramedics were called. Bill took them to his shop, a building behind the house.
Gary went outside and looked in the window to see Samuel on the floor of this room, with
a blanket over him and his eyes halfway opened. The lights were on, and he had nothing
wrapped around his neck. Before the police arrived, Hudson “told us what to say, but to be
honest.” She told Gary to tell police that he and Samuel “had wars with switches and stuff
to explain the stripes that were on him.” After this, the children were removed from the
Hudson home. Soon a note came from Hudson, directed to Gary:
I love you. You saw nothing of Samuel’s spankings. You never saw him get
whipped. [REDACTED.] Nothing—no part at all. Flush this. Make sure it
goes down. I love you, Mom.
Samuel’s sister Elaine corroborated much of the abuse described by Gary. On
Thanksgiving, a few days before Samuel’s death, Elaine saw “brownish-reddish marks,
looks like bruises on Samuel’s arms.” After Thanksgiving dinner, Elaine and Samuel
swapped their usual chores—Elaine cleaned the dishes in the kitchen, and Samuel cleaned
3
19-40533.274

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 4 of 29 PageID #: 2660

the bathroom because “Hudson didn’t want anybody to see Samuel’s marks whenever he
pulled up his t-shirt.” Elaine said that, at some point in the day, Hudson made Samuel
change from a short-sleeve to a longsleeve shirt. Elaine also saw bruises on Samuel’s back
and neck, and said Hudson, sitting close to Samuel, frequently adjusted his shirt, apparently
so the marks would not be visible.
On the afternoon of December 3, Hudson told Elaine that Samuel could not leave his room
because Hudson “felt the spirit of lust.” That day, Elaine heard Hudson’s voice in Samuel’s
room and heard Samuel screaming, “saying that he doesn’t want to live. He was saying let
him die” and “that he repents.” Samuel sounded as if was in pain. Elaine said she also heard
noises of possible discipline from Samuel’s room:
It was a pace of an item beating on Samuel … you could follow the trace of
it. You could tell that whenever she lifts up and then down, (claps hands
together) it’d be like that. (Claps hands together). And again.
After Samuel’s death, Hudson told Elaine and the other children what to do when the police
arrived—to tell them Samuel committed suicide and for the children “not to tell on her for
beating him.” Hudson told Gary to “hide some of the evidence.” Hudson instructed the
children:
She was telling us that she’ll get us fast, she’ll get us back fast, soon as
possible, and she was telling us that she didn’t kill him, kill Samuel, and she
was telling us not to tell—not—if we tell on her, she’ll whoop us until the
cows come home.
Elaine testified she never saw Samuel refuse food or hurt himself.
The medical examiner, Dr. Chester Gwin of Southwest Institute of Forensic Science,
testified the cause of death was blunt force trauma and starvation. He classified the death
as homicide. The body had bruises and abrasions on his face, neck, chest, back, arms,
hands, legs, and the tops of his feet. Some injuries had “squared-off ends,” and some
looped; the looped-shaped injuries could have been caused by a cord. Some of the injuries
were scabbing, indicating having been present “awhile” and were in the process of healing.
Others had been created more recently. Samuel had two fractures in his left ulna, one being
“fresh” or “very recent.” Gwin, however, did not offer any opinion as to the age of the
other break. There was also a significant amount of hemorrhaging, ranging from Samuel’s
sub-scalp, under his shoulder blades, between his ribs, the back of his neck, and arms.
Gwin included starvation in his cause of death based on the ketone level in Samuel’s blood.
The levels were those seen in someone with diabetes, alcoholism, or starvation; and there
was no indication Samuel was afflicted by the first two. Contrary to the testimony of Elaine
and Gary, both Hudson and Bill testified there was ample food always available to the
children; food was not withheld as punishment. Hudson said both Elaine and Samuel
hoarded food in their rooms.
Gwin said that, in his opinion, the wounds to Samuel could not have been self-inflicted. He
also said that it was impossible for someone to choke themselves to death, especially given
4
19-40533.275

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 5 of 29 PageID #: 2661

Samuel’s broken arm would increase the degree of difficulty to generate the arm strength
to occlude his own blood flow to choke himself.
Hudson explained that she and Bill adopted “at risk” children and claimed Gary beat and
killed Samuel. Hudson said that, when she attempted suicide and left a note confession to
the killing a few days after Samuel’s death, she had been attempting to take the blame for
Gary and keep the family together. After being interviewed by law enforcement in the days
after the death, she told Bill she believed authorities were “going to try to pin this on
[Gary].” When asked at trial why, subsequently, she accused Gary of the killing, she said
Gary was “a group of six…. The state’s taken the children that I was trying to protect with
him.” Hudson testified she believed Gary killed Samuel while she was taking a walk around
the property on December 3, 2008. She testified that, when she returned from her hourlong walk, she did not check on Samuel. In her interview with Ray Copeland, Hudson
claimed Samuel was alive and acting out, “mad,” using “profanities,” around 4:30 p.m.
when she came back into the house; and, around 6:00 p.m., she called Bill to come home.
After she and Bill spoke for a while at the house, Bill went to Samuel’s room and found
him dead.
Both parents testified that, in the weeks before his death, Samuel had been refusing to eat
and kicking his bed to hurt himself. Hudson said Samuel’s worsening behavior had
included “storming,” the Hudsons’ term for having tantrums or acting out. For some time,
Samuel had been exhibiting aggressive behavior and urinating in his room. Hudson said,
“[H]e’s angry at the mother figure because of the damage in his life.” She testified he had
RAD, evidencing seventy-five to eighty percent of the symptoms. Neither parent said what
those symptoms were; each acknowledged Samuel had not been taken to a doctor,
psychologist, or psychiatrist to have this condition diagnosed or treated. Hudson and Bill
did claim that they had gone to Dallas looking for a specialist to treat this condition. When
confronted by the prosecutor about a journal entry where Hudson wrote, “May 21, I am
fasting the children again until June 1,” Hudson claimed to have inadvertently omitted
“for,” such that the entry meant she was fasting for her children. Hudson denied making
the statements about the spirit of lust.
As is often the case in homicides, there is no direct evidence Hudson intended to cause
Samuel’s death. Evidence showed Hudson beat and starved the boy, as part of a maniacal
discipline system. But there was nothing overt to show that she had the purpose to kill the
child. It is certainly possible to interpret the evidence to show only her intent to punish or
injure the child. In the middle of the beatings, she stopped to switch implements, to get one
that would “affect him.” In her “suicide” note, Hudson admits “murder[ing]” Samuel; but
the note also claims that the beatings she administered were because Samuel urinated on
the floor of his room. The note contains a timeline of the events of December 3. Late in the
detail of events, Hudson wrote that, at 6:00 p.m., she “Got scared Samuel was quite [sic]
too long,” and she called her husband.
Hudson, 366 S.W.3d at 882-85.

5
19-40533.276

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 6 of 29 PageID #: 2662

III. Hudson’s Federal Habeas Petition and the Response
Hudson first maintains that her due process rights were violated when the state habeas court
refused to allow her presence at the postconviction evidentiary hearing. Moreover, she also asserts
that trial counsel was ineffective for failing to (1) request a lesser-included instruction on felony
murder; (2) seek DNA testing on a rake; (3) file a written motion for a continuance so that the rake
could be tested for DNA; and (4) investigate and offer expert testimony concerning Reactive
Attachment Disorder (RAD). In response, Respondent argues that Hudson did not have a
constitutionally protected right to be present at the habeas evidentiary hearing and that trial counsel
was not ineffective.
IV. Standard of Review
1. Federal Habeas Review
The role of federal courts in reviewing habeas corpus petitions filed by state prisoners is
exceedingly narrow. A prisoner seeking federal habeas corpus review must assert a violation of a
federal constitutional right; federal relief is unavailable to correct errors of state constitutional,
statutory, or procedural law unless a federal issue is also present. See Lowery v. Collins, 988 F.2d
1364, 1367 (5th Cir. 1993); see also Estelle v. McGuire, 503 F.3d 408, 413 (5th Cir. 2007) (“We
first note that ‘federal habeas corpus relief does not lie for errors of state law.’”) (internal citation
omitted). When reviewing state proceedings, a federal court will not act as a “super state supreme
court” to review error under state law. Wood v. Quarterman, 503 F.3d 408, 414 (5th Cir. 2007).
Furthermore, federal habeas review of state court proceedings is governed by the
Antiterrorism and Effective Death Penalty Act (AEDPA) of 1996. Under the AEDPA, which
imposed a number of habeas corpus reforms, a petitioner who is in custody “pursuant to the
judgment of State court” is not entitled to federal habeas corpus relief with respect to any claim
that was adjudicated on the merits in State court proceedings unless the adjudication of the claim—
6
19-40533.277

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 7 of 29 PageID #: 2663

1. resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established law, as determined by the Supreme Court of the
United States; or
2. resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceedings.
28 U.S.C. § 2254(d). The AEDPA imposes a “highly deferential standard for evaluating state
court rulings,” which demands that federal courts give state court decisions “the benefit of the
doubt.” See Renico v. Lett, 559 U.S. 766, 773 (2010) (internal citations omitted); see also
Cardenas v. Stephens, 820 F.3d 197, 201-02 (5th Cir. 2016) (“Federal habeas review under the
AEDPA is therefore highly deferential: The question is not whether we, in our independent
judgment, believe that the state court reached the wrong result. Rather, we ask only whether the
state court’s judgment was so obviously incorrect as to be an objectively unreasonable resolution
of the claim.”). Given the high deferential standard, a state court’s findings of fact are entitled to
a presumption of correctness and a petitioner can only overcome that burden through clear and
convincing evidence. Reed v. Quarterman, 504 F.3d 465, 490 (5th Cir. 2007).
2. Ineffective Assistance of Counsel
To show that trial counsel was ineffective, Hudson must demonstrate both deficient
performance and ensuing prejudice. See Strickland v. Washington, 466 U.S. 668 (1984). In
evaluating whether an attorney’s conduct was deficient, the question becomes whether the
attorney’s conduct fell below an objective standard of reasonableness based on “prevailing norms
of practice.” See Loden v. McCarty, 778 F.3d 484, 494 (5th Cir. 2016).
Moreover, to establish prejudice, the petitioner must show that there is a reasonable
probability that—absent counsel’s deficient performance—the outcome or result of the
proceedings would have been different. Id.; see also Reed v. Stephens, 739 F.3d 753, 773 (5th Cir.
2014) (quoting Strickland, 466 U.S. at 687)). It is well-settled that a “reasonable probability” is
one that is sufficient to undermine confidence in the outcome of the proceedings. Strickland, 466
7
19-40533.278

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 8 of 29 PageID #: 2664

U.S. at 694. Importantly, the petitioner alleging ineffective assistance must show both deficient
performance and prejudice. See Charles v. Stephens, 736 F.3d 380, 388 (5th Cir. 2013) (“A failure
to establish either element is fatal to a petitioner’s claim.”) (internal citation omitted). Given the
already highly deferential standard under the AEDPA, establishing a state court’s application
whether counsel was ineffective “is all the more difficult.” Harrington v. Richter, 562 U.S. 86,
105 (2011); see also Charles, 736 F.3d at 389 (“Both the Strickland standard and the AEDPA
standard are highly deferential, and when the two apply in tandem, review is doubly so.”) (internal
quotations and citation omitted).
V. Discussion and Analysis
1. Presence at Habeas Evidentiary Hearing
In her first claim, Hudson maintains that her due process rights were violated when the trial
court refused to allow her to attend the evidentiary hearing on her state habeas application. She
argues that because criminal defendants are not generally permitted to challenge counsel’s
effectiveness on direct appeal, the first available opportunity to bring such a claim is through a
state habeas application and, as a result, her attendance was required. Hudson insists that denying
her presence at the evidentiary hearing resulted in the denial of her right to confront her purportedly
ineffective trial counsel, her right to testify on her own behalf, and the right to consult with her
habeas attorney throughout the hearing.
A criminal defendant has the right to be present at all stages of a criminal proceeding that
is critical to its outcome if his or her presence would contribute to the fairness of the procedure.
Kentucky v. Stincer, 482 U.S. 730, 745 (1987); see also Snyder v. Massachusetts, 291 U.S. 97,
106-07 (1937) (explaining that a criminal defendant has the due process right “to be present in his
own person whenever his presence has a relation, reasonably substantial, to fullness of his
opportunity to defend against the charge.”). This right is rooted in the Confrontation Clause, as a
8
19-40533.279

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 9 of 29 PageID #: 2665

criminal defendant has the right, among many others, to confront the witnesses against her. See
Faretta v. California, 422 U.S. 806, 818 (1975). “The presence of a defendant is a condition of
due process to the extent that a fair and just hearing would be thwarted by his absence, and to that
extent only.” See U.S. v. Gagnon, 470 U.S. 522, 526 (1985) (internal citations and quotations
omitted).
However, postconviction proceedings are not considered criminal proceedings but, rather,
an “independent and collateral inquiry into the validity of the conviction.” See U.S v. Hayman, 342
U.S. 205, 222 (1952); see also Murray v. Giarratano, 492 U.S. 1, 2 (1989) (“State collateral
proceedings are not constitutionally required as an adjunct to the state criminal proceeding and
serve a different and more limited purposes than either the trial or appeal.”).
Because postconviction proceedings are not part of actual criminal proceedings, a
convicted criminal defendant does not have the constitutional right to attend postconviction
hearings. See Hayes, 342 U.S. at 222 (explaining that a defendant’s presence is not required in a
postconviction proceeding because “[u]nlike a criminal trial where the guilt of the defendant is in
issue and his presence is required by the Sixth Amendment, a proceeding under section 2255 [postconviction proceedings of convicted federal prisoners] is an independent and collateral inquiry
into the validity of his conviction.”); see also Oken v. Warden, MSP, 233 F.3d 86, 92 (1st Cir.
2000) (“However, Oken points to no authority (and we likewise find none) that directly supports
the extension to state (or federal) post-conviction proceedings of a criminal defendant’s
constitutional right to personally confront one’s accuser’s); Burgess v. King, 130 F.2d 761, 762
(8th Cir. 1942) (“The constitutional right of an accused to be confronted with the witnesses against
him is applicable only to criminal proceedings, and hence, it cannot be claimed that the petitioner
had the right of confrontation [in post-conviction proceedings].”). There is no constitutional right
to attend a post-conviction hearing.
9
19-40533.280

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 10 of 29 PageID #: 2666

Moreover, Texas courts have repeatedly and consistently held that a prisoner does not have
a constitutional right to attend postconviction hearings. See Ex parte Mines, 26 S.W.3d 910, 914
(Tex. Crim. App. 2000) (“But an application for the post-conviction writ of habeas corpus enjoys
neither a presumption of innocence nor a constitutional right to be present at a hearing.”); Cravin
v. State, 95 S.W.3d 506, 510 (Tex. App.—Houston 2002, pet. ref’d) (“The Court of Criminal
Appeals has held that a defendant has no constitutional right to be present at post-conviction writ
of habeas corpus proceedings.”); Rose v. State, 198 S.W.3d 271, 272 (Tex. App.—San Antonio
2006, pet. ref’d) (“A defendant does not enjoy a constitutional right to be present at a postconviction writ of habeas corpus hearing.”). Because there is no constitutional right to attend postconviction hearings, Hudson’s claim is without merit.
To the extent that she challenges Texas’s habeas jurisprudence, the Court notes that any
purported infirmities within state habeas proceedings do not present a constitutional issue. See
Kinsel v. Cain, 647 F.3d 265, 273 (5th Cir. 2011) (“We, as federal appeals court entertaining a
federal habeas corpus application, are without jurisdiction to review the constitutionality of
Kinsel’s state postconviction proceedings. Indeed, we are barred from doing so by our ‘no state
habeas infirmities rule.’”); Trevino v. Johnson, 168 F.3d 173, 180 (5th Cir. 1999) (“Our circuit
precedent makes clear that Trevino’s claim fails because infirmities in state habeas proceedings
do not constitute grounds for relief in federal court.”). The Fifth Circuit further explained its
rationale behind the “no state habeas infirmities rule”:
[E]rrors in a state habeas proceeding cannot serve as a basis for setting aside a valid original
conviction. An attack on a state habeas proceeding does not entitle the petition to habeas
relief in respect to his conviction, as it is an attack on a proceeding collateral to the
detention and not the detention itself.
Nichols v. Scott, 69 F.3d 1255, 1275 (5th Cir. 1995). Accordingly, because Hudson had no
constitutional right to attend her state habeas proceeding, this claim should be dismissed.
10
19-40533.281

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 11 of 29 PageID #: 2667

In her reply to Respondent’s answer, Hudson insists that due process protections entitled
her to be present at the habeas hearing because credibility of her attorney was an issue and in light
of the holding in Panetti v. Quarterman, 551 U.S. 930 (2007). Contrary to Hudson’s contention,
Panetti is not analogous to her case.
Panetti involves the question of whether Panetti, a criminal defendant sentenced to death,
can be executed if he is incompetent. The Court held that Panetti, who made a substantial showing
of incompetency, was not afforded due process protections of a “fair hearing” on his claim of
incompetency to be executed—protections that included the “opportunity to be heard.” Panetti,
551 U.S. at 949. The Court further held that Panetti was entitled to the “basic requirements” of
procedural due process, which include “an opportunity to submit evidence and argument from
petitioner’s counsel, including expert psychiatric evidence that may differ from the State’s own
psychiatric examination.” Id. at 950. Ultimately, the Court found that the state failed to provide
Panetti with an opportunity to be heard on his incompetency claim, as he was not given an
opportunity to present evidence to make an adequate response to the expert evidence solicited by
the state. Id. at 952.
Here, while Hudson was convicted of capital murder, she was not sentenced to death, is
not awaiting execution, and has not presented a claim of incompetency. Panetti is therefore not
analogous. Furthermore, under the requirements elucidated in Panetti, Hudson was provided an
opportunity to be heard at her habeas hearing. Specifically, she presented evidence through the
direct testimony of Dr. McCann and her sister-in-law regarding RAD; she also placed defense
counsel on the stand, who was cross-examined. Hudson provided Dr. McCann’s affidavit to the
state habeas court, which provided the basis for his testimony at the habeas hearing. Accordingly,
Hudson was provided the opportunity to be heard under Panetti—by presenting her claims of
ineffective assistance of counsel and the RAD issue—regardless if she was actually present.
11
19-40533.282

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 12 of 29 PageID #: 2668

Nonetheless, Hudson’s presence was not foreclosed. After Hudson’s habeas counsel argued that
her presence was necessary, the court explained that it would seek another habeas hearing if the
court determined that further information was necessary. (Dkt. #12, pg. id. #2539). Hudson’s first
argument should be dismissed as it is meritless.
2. Claims of Ineffective Assistance
Hudson claims that her trial counsel was ineffective for a variety of reasons. As mentioned,
she must show both deficient performance and ensuing prejudice. See Strickland, 466 U.S. at 668.
A. Lesser-Included Instruction—Felony Murder
Hudson first maintains that trial counsel was ineffective for failing to request a charge or
instruction on felony murder, based on the felony offense of injury to a child. Specifically, she
highlights how trial counsel sought an invalid manslaughter charge—which shows his “lack of
thoroughness on the law and without consultation with his client.” Hudson insists that this was
not trial strategy but, rather, evidence of counsel’s lack of understanding. Furthermore, she argues
that the appellate courts found that the evidence supported a felony murder charge; however, due
to counsel’s ineptness, she never received the benefit of that charge.
A review of the record demonstrates that Hudson raised this claim in her state habeas
application, which was ultimately denied by the Texas Court of Criminal Appeals on the findings
of the trial court. Trial counsel, David James, supplied a May 2016 affidavit in response to
Hudson’s habeas application and testified at the evidentiary hearing—addressing this claim in
detail. In his affidavit, counsel explained:
As to Issue One in the petition regarding the felony murder instruction, I do not recall my
specific thoughts with regard to the lesser included offenses of felony murder and
manslaughter. Even if I had believed that we were entitled to numerous lesser included
offense instructions, I would not have necessarily requested them all. For example, my
reaction is that felony murder (based upon injury to a child) does not fit with our defense
theory at trial. Additionally, had we been given a manslaughter instruction, but not a felony
murder instruction, it could have forced a jury into a manslaughter finding as opposed to a
felony murder finding. Accordingly, the decision not to request the felony murder
12
19-40533.283

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 13 of 29 PageID #: 2669

instruction was trial strategy. Finally, Hudson had numerous and strong instructions to me
at trial with regard to every facet and level of the trial procedure, many of which were
contrary to my advice. Hudson was absolutely adamant that she would not admit to any
acts underlying the offense. Accordingly, she refused any action at trial which she
interpreted as an admission. For this reason, she would have forbid a requested instruction
on felony murder. In fact, I am surprised that we were able to request a manslaughter
instruction in light of her position.
(Dkt. #12, pg. id. #2387-88). Furthermore, at the September 2016 habeas evidentiary hearing,
counsel testified—reiterating his strategy and Hudson’s refusal to admit any underlying acts, in
relevant parts:
MR. JAMES: Mrs. Hudson’s statement to me, and specifically when I took to her an offer
that had been made by the State that she plead to murder for fifty years was, “David, I
wouldn’t plead to three days. I did not commit the crime as charged.”
...
MR. JAMES: To say that I had with her a detailed discussion concerning felony murder,
I don’t recollect the, whether or not that concept came up, in the posture of—the lesserincluded offense would then be endangerment to a child, in that when I brought that up that
there was no endangerment to the victim by her. There were stories about, and testimony
at trial, about their behavior. But there were also stories about them taking trips and having
positive interactions, and her adamant position to me was, “I have not done anything
wrong. I want to take the stand and tell the jury that,” and we kind of went from there. So,
I’m trying to give you a recollection of my thinking at my meetings with her. It was to
discuss the other siblings, their behavior during the pertinent times, and questioning, and
to indicate that I was going to try and see if the Court would consider a manslaughter
charge, not to try and undercut the credibility of what she was telling me, but that I thought
it was important to do that; and then we would be looking at a 2-20 as opposed to the felony
murder scenario, which I do state to the Court I don’t really recollect the specifics of a
discussion surrounding a concept called felony murder to her. But then of course, possibly
looking at life—and even though parole is possible—and that at her age she would spend
most of the rest of her life in prison, our goal was to exonerate her and, if not, at least have
the jury consider the factual testimony of the other family members about behavior and
have the judge charge manslaughter. Judge Burgess decided not to do that.
(Dkt. #12, pg. id. #2541-43). On cross-examination, James further explained that Hudson would
not admit to any criminal act, which basically forced the defense team to pursue an “all or nothing”
defense—as that strategy stemmed from Hudson repeatedly telling him that she “certainly didn’t
murder anybody, but number two, I didn’t abuse a child either.” (Dkt. #12, pg. id. #2553).
13
19-40533.284

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 14 of 29 PageID #: 2670

The state habeas court then issued findings of fact and conclusion of law in December
2016. (Dkt. #12, pg. id. #2191). On the felony murder issue, the court highlighted how Hudson
“had numerous and strong instructions,” which were contrary to counsel’s advice. The court
specifically found that “trial counsel was not deficient for not requesting an instruction on the
lesser-included offense of felony murder, which would have been contrary to trial strategy and the
Defendant’s position at trial regarding the facts.” (Dkt. #12, pg. id. #2194).
A review of the entire record shows that the state habeas court’s adjudication of this claim
was not unreasonable. A conscious and informed decision on trial tactics and strategy cannot be
the basis for constitutionally ineffective assistance of counsel unless it is so ill chosen that it
permeates the entire trial with obvious unfairness.” Crane v. Johnson, 178 F.3d 309, 314 (5th Cir.
1999) (quoting Garland v. Maggio, 717 F.2d 199, 206 (5th Cir. 1983)); Strickland, 466 U.S. at
690 (“[S]trategic choices made after thorough investigation of the law and facts relevant to
plausible options are virtually unchallengeable.”). A person commits felony murder if she:
“[C]ommits or attempts to commit a felony, other than manslaughter, and in the course of
and in furtherance of the commission or attempt, or in the immediate flight from the
commission or attempt, [she] commits or attempts to commit an act clearly dangerous to
human life that causes the death of an individual.”
See Tex. Penal Code §19.02(b)(3). Moreover, a person commits felony injury to a child where she
“intentionally, knowingly, recklessly, or with criminal negligence, by act …, causes, inter alia,
serious bodily injury or injury to a child.” See Hudson, 415 S.W.3d at 895; see also Tex. Penal
Code §22.04(a).
Here, given that Hudson was absolutely adamant about not admitting to any underlying
offense and that she did nothing wrong—essentially forcing defense counsel to pursue an “all or
nothing” approach—requesting a felony murder charge would have been antithetical to that
strategy. The record shows that Hudson would not admit to injuring her child, as she explained to
counsel that she “certainly didn’t murder anybody, but number two, [she] didn’t abuse a child
14
19-40533.285

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 15 of 29 PageID #: 2671

either.” Because a felony murder charge in this case would have rested upon Hudson injuring the
child, counsel’s decision not to pursue that charge was reasonably sound trial strategy in light of
Hudson’s demands. Petitioner has failed to demonstrate that the state court’s adjudication of this
claim was unreasonable.
The habeas court also found that Hudson was not harmed by counsel’s failure to request a
felony murder instruction. A claim of ineffective assistance of counsel will fail “if the facts against
adduced at trial point so overwhelmingly to the defendant’s guilt that even the most competent
attorney would be unlikely to have obtained an acquittal.” See Green v. Lynaugh, 868 F.2d 176,
177 (5th Cir. 1989); see also Salazar v. Quarterman, 260 F. App’x 643, 650 (5th Cir. 2007) (citing
Green, 868 F.2d at 177) (unpublished) Jones v. Jones, 163 F.3d 285, 304 (5th Cir. 1998) (same).
Here, the record contains strong and ample evidence of Hudson’s guilt of capital murder
through the felony offense of kidnapping. The record shows that Hudson confessed to murdering
Samuel through a note “to the cops.” Moreover, two of her other children testified at trial about
her confining Samuel to his room, starving, beating, and torturing him with a variety of instruments
while he was tied up by zip ties—and how he begged for his life by “repenting,” stating that she
was breaking his bones as she kept striking him, and articulating that he was “dying.” The evidence
showed, and the child witnesses corroborated, that she repeatedly beat Samuel to the extent that
the various instruments utilized broke—at which point she ordered one of the children to fetch her
a stronger instrument that would withstand additional beatings.
After finding Samuel deceased, she ordered one of the children to “hide the evidence,”
threatened them that “she’ll get [them] back fast” if they told on her, and then informed law
enforcement that Samuel committed suicide. She then blamed another child for his death. Hudson
even wrote a letter to one of the children ordering him to “flush this” because he did not witness
any spankings. Members of law enforcement that arrived on the scene testified how Samuel’s
15
19-40533.286

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 16 of 29 PageID #: 2672

many bruises and abrasions were abnormal and not consistent with suicide. The medical examiner
testified that Samuel died from blunt force trauma and starvation.
Given this overwhelming evidence of Hudson’s guilt—which does not even cover all of
the evidence presented at trial—the Court is confident that the outcome of the trial would not have
been different if the jury had the option to convict her of felony murder, especially given how the
jury returned a guilty verdict for capital murder in less than two hours. Because Hudson cannot
show that counsel was ineffective for failing to request and argue a felony murder instruction, this
claim should be dismissed. See Strickland, 466 U.S. at 696 (explaining that a court analyzing a
claim of ineffective assistance “must consider the totality of the evidence before the judge or
jury.”).
B. Failure to Test the Rake for DNA and Seek Continuance for DNA Testing
Next, Hudson maintains that counsel was ineffective for failing to seek DNA testing on the
rake, which was one of the murder weapons as alleged. She also contends that counsel was
ineffective for failing to file a formal motion for a continuance so that the rake could be tested.
Hudson asserts that counsel failed to conduct an independent investigation into the DNA, as the
child who testified about the rake could have been impeached. Moreover, she argues that DNA
evidence on the rake was relevant to her case because “[i]f Petitioner’s DNA was not on the rake,
it would have supported her defensive theory at trial that she did not commit the offense as
alleged.” Conversely, “[i]f her DNA was on the rake, that alone would not have been probative
since it was a household item and her DNA could have been present due to regular use.” Finally,
no matter the results, she alleges, DNA testing “would have informed counsel’s trial strategy
without having to go to trial blind, as he did.”
Under Texas law, a convicted person may move for forensic DNA testing of evidence
containing bodily material. See Tex. Code Crim. P. Ann. art. 64.01. The trial court may only order
16
19-40533.287

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 17 of 29 PageID #: 2673

testing if it finds that the evidence still exists and is in the condition that makes DNA testing
possible, has been subject to a chain of custody sufficient to establish that it has not been
substituted, tampered with, replaced, or altered in any material respect, and identity was or is an
issue in the case. See Tex. Code Crim. P. Ann. art. 64.03(a)(1)(A),(B),(C) (emphasis supplied).
Importantly, the movant must also establish, by a preponderance of the evidence, that she would
not have been convicted if exculpatory results were obtained through DNA testing. See Tex. Code
Crim. P. Ann. art. 64.03(a)(2)(A); see also Kinney v. Shannon, 630 F. App’x 258, 261 (5th Cir.
2015) (unpublished) (“Texas courts routinely affirm the denial of motions for post-conviction
DNA testing when a defendant fails to establish, by a preponderance of evidence, that he would
not have been convicted if exculpatory results had been obtained through DNA testing.”).
A review of the record reveals several areas of pre-trial discussion and trial testimony
regarding DNA on the rake. During a pre-trial hearing, the State admitted that various items were
submitted for DNA testing, but no analysis had been completed. (Dkt. #10, pg. id. #249). The
State explained that, after discussions with the sheriff’s department and the Dallas lab, a rake was
submitted for analysis. (Dkt. #10, pg. id. #240). However, one of the officers subsequently told
the lab to “hold off” on testing the rake for DNA. Id. The State indicated that it could proceed to
trial regardless of the DNA situation because “we frankly don’t feel like that’s going to be a key
element of our case.” Id.
With that exchange, the Judge placed the officer handing the DNA requests, Officer Page,
under oath. Officer Page explained that the Southwestern Institute of Forensic Science received
fourteen different items that the sheriff’s office submitted for DNA analysis. (Dkt. #10, pg. id.
#242). A member of the analytic team at the Institute contacted Captain Copeland and “asked him
if he wanted them to proceed on doing the DNA analysis, testing it against the defendant and
against the victim.” Id. Captain Copeland said “hold off” on the testing because he did not know
17
19-40533.288

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 18 of 29 PageID #: 2674

if he would need it. Id. Testing was never done because the institute never heard back from Captain
Copeland.
After hearing testimony, the trial court inquired about the relevancy of the testing (or lack
of testing). The court acknowledged that no motion for a continuance had been filed, and
questioned whether the lack of evidence would be relevant for the court to decide. The State
immediately responded, stating “whatever DNA analysis had been conducted, we certainly reserve
the right to introduce that evidence.” However, the State stated that “in terms of the items listed
on that piece of paper [which included the rake], that lab submission form from the Institute of
Forensic Sciences, we do not feel that that is central to our case and we would not be seeking to
introduce any evidence in regard to what’s listed on that form.” (Dkt. #10, pg. id. #244). Defense
counsel then moved for a continuance, “so that we can have time to analyze that,” which the court
denied.
While the record shows that DNA evidence on the rake was not introduced into evidence,
Captain Copeland testified at trial regarding the rake. He first testified that he seized the rake
during a search warrant and placed it into evidence. (Dkt. #10, pg. id. #488). Captain Copeland
then identified the rake in open court and explained that the victim’s brother, Gary, identified that
rake as being used to beat Samuel. (Dkt. #10, pg. id. #489).
On cross-examination, defense counsel highlighted that there was no DNA analysis of the
rake, to which Captain Copeland responded in the affirmative. Defense counsel then asked
Captain Copeland to explain to the jury why there was no DNA analysis on any of the items listed.
Captain Copeland explained that after receiving the lab examination, there were some DNAs found
on some objects; however, after going through it and “thinking about it and everything, I couldn’t
see where getting DNA that would match Ms. Hudson or Samuel to help the case any, since the
samples were taken from Samuel’s bedroom, which it also, you know—it doesn’t have a time on
18
19-40533.289

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 19 of 29 PageID #: 2675

the DNA. It can be put there weeks prior, months, years prior. And they both had access to these
items of this room, and so I just didn’t see any use in it.” (Dkt. #10, pg. id. #491-92). When asked
again, Captain Copeland reiterated how both Hudson and Samuel had access to the rake over a
period of time, so “there’s no way to telling if they were, whose DNA it was.” Id. He also
explained that since they already had a perpetrator named—as they were not looking for a strange
individual—he did not see any use in DNA analysis. (Dkt. #10, pg. id. #493).
The state habeas court issued findings of fact and conclusions of law on this issue. The
court found that Hudson failed to specify whose DNA on the rake would have been relevant and
what she contends the DNA testing would have established. (Dkt. #12, pg. id. #2199). Moreover,
the court determined:
If the results of testing established the rake contained the victim’s DNA, it would have
supported the child [witness’s] testimony and strengthened the State’s case. On the other
hand, the lack of the victim’s DNA on the rake would not have established that the child
witness did not take the rake to the Applicant, as he testified, and would not establish
Applicant did not strike the victim with the rake.
(Dkt. #12, pg. id. #2199). While the court noted that trial counsel’s failure to file a written motion
for a continuance failed to preserve the issue for appeal, the court reasoned that Hudson failed to
establish that—had counsel filed the written motion for a continuance—that the outcome would
have been different. Id.
A review of the entire record shows that the state habeas court’s adjudication of this claim
was not unreasonable. Hudson cannot show prejudice for counsel’s failure to test the rake or seek
a continuance to have the rake tested. She cannot show that any DNA testing on the rake would
have revealed exculpatory evidence or that the outcome would have been different. As mentioned,
the State explained that it was not planning on having the rake tested because it was not a key
element of its case. This reasoning is exemplified by Captain Copeland’s testimony that any DNA
testing on the rake would not have been useful because both Hudson and the victim had access to
19
19-40533.290

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 20 of 29 PageID #: 2676

the rake over a period of time. Furthermore, given that law enforcement was not searching for an
unknown suspect—as they believed they had their perpetrator given the totality of the evidence—
Captain Copeland and the State felt it unnecessary to test the rake for DNA. Accordingly, because
both Hudson and the victim had access to the rake over a period of time, DNA evidence would not
have necessarily been exculpatory.
Importantly, as the Respondent alludes to, the trial record further demonstrates that Hudson
cannot show that the outcome of the proceedings would have been different had the rake ultimately
been tested for DNA. As mentioned, Captain Copeland testified that the victim’s brother, Gary,
identified the rake and explained that it was used to beat the victim to death. Moreover, Gary
testified at trial that Hudson “had me go get the metal garden rake that was outside” and brought
it to her—at which point the beatings continued. (Dkt. #10, pg. id. #719). Given that the child
witness—who painted a gruesome picture of the torture and murder of the victim—explained that
the rake was used to murder the victim, after Captain Copeland testified that Gary identified the
rake, DNA results on the rake would not have changed the outcome of the proceedings. Both
Hudson and the victim had access to the rake and, more crucially, Gary testified that the rake was
used on the victim—along with a significant amount of additional evidence pointing to Hudson’s
guilt.
In other words, Hudson cannot show that the outcome of the trial would have been different
had the rake been tested for DNA or had counsel filed a motion for continence to have it tested.
In this way, the state habeas court’s adjudication of this claim was not unreasonable or contrary to
federal law. See, e.g., Vasquez v. Thaler, 505 F. App’x 319, 328 (5th Cir. 2013) (unpublished)
(“As a result, reasonable jurists would not disagree with the district court’s decision that there is
no reasonable probability that, but for the absence of the new DNA expert’s testimony, the trial’s
outcome would have been different, and we deny COA on this ground.”); Elam v. Lykos, 470 F.
20
19-40533.291

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 21 of 29 PageID #: 2677

App’x 275, 276 (5th Cir. 2012) (unpublished) (“Any further DNA testing of the evidence from
Elam’s trial would not be probative on the issue of Elam’s guilt or innocence.”). This claim should
therefore be dismissed.
C. Failure to Investigate and Raise Reactive Attachment Disorder Defense
In her final claim, Hudson maintains that counsel was ineffective for failing to investigate
and then assert a defense surrounding Reactive Attachment Disorder (RAD) or various behavioral
characteristics and parenting styles concerning at-risk foster children. Specifically, Hudson insists
that counsel should have pursued a defense theory surrounding the notion that at-risk foster
children are behaviorally different from biological children under the DSM-V and how her
parenting disciplinary techniques were used to address the specific demands of at-risk foster
children.
Moreover, Hudson states that she provided defense counsel with numerous materials
regarding at-risk foster children and the names of experts who could best explain how her parenting
style—the use of door alarms, the deprivation of food, the removal of bedroom furniture, and
whippings—was “not outside the realm of acceptable approaches to dealing with at-risk adoptees.”
She attached an affidavit from Dr. McCann, who, she contends, “would have been able to explain
how such children frequently require an approach which might seem harsh to observers.” Dr.
McCann was available and would have testified to offer and explain how RAD applied to this case.
Hudson argues that the jury—rather than “being unduly inflamed by the unconventional
childrearing methods employed”—would then have been given a rational explanation for the
conditions at home. Counsel’s failure to investigate and present such expert testimony, she opines,
was inexcusable given the “horrendous facts.”
Hudson raised this claim in her state habeas application. After an evidentiary hearing, the
Texas Court of Criminal Appeals denied relief on the findings of the trial court. Dr. McCann,
21
19-40533.292

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 22 of 29 PageID #: 2678

licensed psychologist with forty years’ experience, provided the 2016 affidavit to the habeas court,
which provided the following in relevant part:
In September of 2011, I received a letter from Mr. Bill Hudson asking my availability and
willingness to serve as an advisor to his attorney and, possibility, as an expert witness at
trial. There was no further contact, including any communication or conversations with
either Mr. Hudson or any attorney representing either him or Mrs. Hudson, at that time or
since.
In the recent weeks, at the request of Mr. John Jasuta, attorney, I have examined materials
relating to the case of Cynthia Ann Hudson who was tried for capital murder of her adopted
son, Samuel Hudson.
Had I reviewed the documents at the time of her trial, I believe I would have been in a
position to provide the jury with an understanding of the unique psychological problems
which troubled adoptees can manifest. I could have informed jurors of the serious behavior
problems some children present in their adoptive families. Because of my experience with
more than 200 adoptive families seen in my practice, I could have described the pervasive
mistrust, the deep shame, the impulsiveness, anger and desperation within some
maladjusted adoptees. These troubles, which are uncommon in children from stable and
caring backgrounds, sadly, are not uncommon in those unfortunate adoptees with histories
similar to the reported pre-adoption histories of the Hudson children, [].
As part of my explanation to jurors, I could have explained that the development of
conscience, empathy and social awareness in children requires loving emotional
attachments and well-attuned care during early formative years. Without these positive
early experiences, neglected, abused and chronically insecure children often remain
entirely self-centered, oppositional and oblivious to the needs and feelings of those around
them. This sub-group of the most impaired adoptees often manipulate people for their own
immediate advantage. The more damaged among them cheat, lie and steal without apparent
guilt or discomfort. Like much younger children, they act with no regard for their own
reputations and they seem to experience little or no loyalty to those on whom they are
dependent. Also like pre-schoolers, conscience-impaired children fail to see the long term
consequences of their behavior and thus act on the impulses of the moment. Stealing from
a friend is an example of the kind of impaired judgment which results from a lack of early
emotional attachments to others.
…
I would have explained that the attitudes and behaviors characteristic of emotionally
disturbed adoptees are very difficult for well-raised adults to comprehend or imagine. Even
a teacher or a pediatrician with years of experience may not have encountered an adoptive
family with a very troubled child who has been severely damaged during a period of preadoption rejection, neglect and abuse.
I would have told the jury that adopted children who display some of these problems are
often described as manifesting an “attachment disorder.” Those with full range of
22
19-40533.293

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 23 of 29 PageID #: 2679

impairments would qualify for the formal psychiatric disorder called Reactive Attachment
Disorder, or “RAD,” which is included in the current edition of the Diagnostic and
Statistical Manual of Mental Disorders (DSM-5), published by the American Psychiatric
Association.
...
Parenting methods which would be helpful and effective with a well-bonded child are often
entirely ineffective with a troubled adoptee who feels no motivation to please the parent or
adopt the values of the family. Control battles are common with such children. They have
particular difficulty in relinquishing control to adults and, like toddlers in the “terribletwo’s,” often defy and provoke in their efforts to make themselves feel more powerful, safe
and independent. Parents coping with such adopted children commonly describe the
experience as being the most difficult task they have faced in their life.
Therapeutic parenting of deeply mistrustful adoptees requires firm, even-handed child
management which holds the child accountable to other for behaviors which have been
grossly disrespectful or have caused inconvenience and harm. Parents learn to be alert to
manipulations, excuse-making, subtle threats, insincere promises and a variety of
behaviors seldom encountered in managing emotionally attached children. Assigning
disciplinary work tasks, restricting access to playmates, television and toys and physically
holding or isolating a severely disruptive child may be necessary. Ensuring the safety of a
child who willfully defies adults usually requires a “tough love” approach including
mandatory reparations, door alarms, restrictions to the house and other methods which may
seem harsh or needlessly controlling to parents whose children more readily comply with
directions and requests. Well-accepted parenting techniques for problem adoptees are set
out in the often recommended book by parent trainer, Nancy L. Thomas, entitled When
Love is Not Enough: A Guide to Parenting Children with RAD—Reactive Attachment
Disorder (2005 Edition).
Reportedly, the Hudson family utilized some of the techniques recommended by Nancy
Thomas in dealing with their emotionally disturbed adoptive children. These techniques,
in my opinion, would be viewed by most specialists in the field as being within the bounds
of ordinary treatment for troubled children who are suffering from Reactive Attachment
Disorders.
(Dkt. #12, pg. id. #2379-83). In defense counsel’s amended affidavit to the state habeas court,
counsel elaborated on this RAD claim:
As to Issue Two in the petition regarding evidence of RAD syndrome, I recall my conscious
decision to avoid the RAD syndrome issue for fear of providing jurors with a potential
motive, assuming it would even be admitted by the trial court in the first place.
Accordingly, the decision to avoid the RAD syndrome issue was trial strategy. I did not
fail to investigate RAD syndrome. Rather, in light of our defense strategy, the RAD
syndrome issue simply didn’t fit because our defense was straight forward, Hudson wasn’t
involved. No investigation of RAD syndrome could overcome that contradiction. Stated
another way, there is no potential RAD defense in light of our trial strategy. Hudson
23
19-40533.294

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 24 of 29 PageID #: 2680

certainly discussed RAD syndrome with me and discussed potential expert witnesses.
However, I explained my opinion and explained it was based upon our trial strategy and
Hudson did not object or instruct me to act otherwise.
(Dkt. #1, pg. id. #157).
At the habeas evidentiary hearing, defense counsel testified similarly. He explained that
Mr. Hudson provided him with “ample” material on RAD. (Dkt. #12, pg. id. #2543). Counsel then
described how he met with Mr. Hudson to go over trial strategy and how RAD would affect “us at
trial vis-à-vis anybody that says I haven’t hit anybody with a rake or with a baseball or a broom—
I’ve not done anything like this.” Id. Counsel then stated that he did not want to “open the door”
to any notion that the Hudsons adopted at-risk children and would then use this, “this kind of
concept of behavior with no M.D. backing it up to open the door for a serious conviction of a client
who’s telling me, ‘I’m innocent.’” Id.
When asked about how he was provided names of experts to consult with, counsel
explained that he read a lot of materials, but did not “line up anyone for trial” because the RAD
defense may make “things even worse for her, in that she said, ‘I didn’t do this. It was tough
dealing with these children, but I dealt with it. I didn’t murder anybody.” Id. Crucially, defense
counsel explained that Hudson did not seek any medical diagnosis and did not have any medical
records to authenticate RAD, even though she suspected the children suffered from RAD. (Dkt.
#12, pg. id. #2546). As a result, counsel believed that it was purely speculative that the children
suffered from the condition and he “didn’t want it to hurt her” or become an “excuse for homicidal
behavior.” Id.
Hudson’s sister-in-law, Doris Hudson, also testified at the evidentiary hearing regarding
RAD. As a licensed clinical social worker, she explained that she was qualified to diagnose RAD
from both her education and experiences. She explained that she spoke with defense counsel
concerning RAD, and noted that defense counsel was “receptive” to the concept. (Dkt. #12, pg.
24
19-40533.295

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 25 of 29 PageID #: 2681

id. #2574). Moreover, she testified that her impression was that defense counsel was going to call
her to testify, even though she was never subpoenaed. While she was present at trial, placed under
the Rule, and excluded from the courtroom during trial as a potential witness, she was never called.
Id.
After the hearing, the state habeas court entered findings of fact and conclusions of law.
With respect to the RAD defense, the court found that “counsel was informed about RAD
syndrome and had a witness available at trial as to RAD syndrome, but chose not to call the witness
during the trial as part of a reasonable trial strategy.” (Dkt. #12, pg. id. #2197). Moreover, the
habeas court found that because counsel investigated RAD, any claim that counsel failed to
investigate RAD was meritless. Id.
A review of both the trial and habeas record illustrates that the state habeas court’s
adjudication of this claim was not unreasonable or contrary to federal law. Hudson cannot show
that trial counsel was ineffective on this issue. Trial counsel has a duty to make a reasonable
investigation of a criminal defendant’s case or to make a reasonable decision that an investigation
is not necessary. See Ransom v. Johnson, 126 F.3d 716, 722 (5th Cir. 1997); Green v. Cockrell,
67 F. App’x 248, 2003 WL 2114722 *3 (5th Cir. 2003) (unpublished). A habeas petitioner alleging
that an investigation was inadequate or nonexistent must allege—with specificity—what the
purported investigation would have revealed and how it would have affected the outcome of the
trial. See Druery v. Thaler, 647 F.3d 535, 541 (5th Cir. 2011) (quoting Nelson v. Hargett, 989
F.2d 847, 850 (5th Cir. 1993)).
Here, however, the record demonstrates that trial counsel investigated RAD syndrome. He
read various materials on the subject, interviewed Hudson’s sister-in-law, and discussed the
condition with Mr. Hudson. Simply because counsel subsequently decided not to call the sisterin-law or raise the issue at length does not mean that he failed to investigate. To the contrary, the
25
19-40533.296

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 26 of 29 PageID #: 2682

record shows that counsel investigated the RAD issue and consciously chose not to proceed any
further because he believed it would harm his client. Accordingly, the state habeas court’s finding
that counsel actually investigated the condition is completely reasonable.
Importantly, Hudson cannot show prejudice for counsel’s failure to present a RAD defense
theory. As mentioned previously, “a conscious and informed decision on trial tactics and strategy
cannot be the basis for constitutionally ineffective assistance of counsel unless it is so ill chosen
that it permeates the entire trial with obvious unfairness.” See Crane, 178 F.3d at 314. Moreover,
an informed decision to forgo presenting “double-edged” evidence—once that could either help or
harm a defendant—is reasonable trial strategy. See Hopkins v. Cockrell, 325 F.3d 579, 586 (5th
Cir. 2003) (“This Court has held that a tactical decision not to pursue and present potential
mitigating evidence on the ground that it is double-edged in nature is objectively reasonable.”).
The record shows that the defense throughout trial was that Hudson was completely
innocent; she would not admit to any wrongdoing, including any abuse of her children. By
highlighting the differences between “at-risk foster children” and biological children, the jurors
may very well have believed that Hudson was providing an excuse for homicidal behavior—
especially because there was no actual official medical diagnosis. It is entirely possible that such
a defense could have further inflamed the jury as well.

Accordingly, counsel’s conscious

decision—a decision he made after actually investigating RAD—was pure trial strategy that did
not prejudice Hudson’s trial. See, e.g., Crane v. Johnson, 178 F.3d 309, 315 (5th Cir. 1999) (“All
of the evidence that Crane contends should have been presented at the punishment phase of his
trial had a double-edge quality. Trial counsel decided the evidence was potentially more harmful
than helpful.”); Mann v. Scott, 41 F.3d 968, 984-85 (5th Cir. 1994) (“In this case, Mann’s trial
counsel admitted in an affidavit that he made a strategic choice not to introduce evidence of his

26
19-40533.297

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 27 of 29 PageID #: 2683

low intelligence or abusive childhood because such evidence had a ‘double-edged’ nature which
may have harmed Mann’s case.”).
Hudson insists that a defense theory surrounding RAD would have shown the jurors how
her parenting disciplinary techniques were used to address the specific demands of an at-risk foster
child suffering from RAD. However, as the Respondent highlights, the argument concerning
behavioral issues and alternative-disciplinary techniques were presented at trial and, ultimately,
rejected by the jury. Specifically, Mr. Hudson testified that Samuel resided in a bedroom with an
alarm on the door and with no furniture because he urinated on himself, was confined to his room
every day like all of the children, acted out, allegedly harmed himself and refused to eat, and
demonstrated a proclivity for lying that resulted in punishment.
However, despite Samuel’s “acting out” and urinating on himself, Mr. Hudson admitted
that they never sought medical treatment or a diagnosis. (Dkt. #10, pg. id. #647). Moreover, Mr.
Hudson explained that the siblings were sometimes “combative” and that one of the siblings had
killed Samuel despite no personal knowledge or evidence to support such a claim. Accordingly,
Mr. Hudson provided the jury with a variety of explanations for their parenting styles and Samuel’s
death—all of which was rejected by the jury. Because the jury heard such testimony, Hudson
cannot show that the outcome would have been any different with an official RAD defense.
Accordingly, the state court’s adjudication of this claim was not unreasonable.
VI. Conclusion
Hudson has failed to show that the state habeas court’s adjudication of her claims resulted
in a decision that was contrary to or involved an unreasonable application of clearly established
federal law, as determined by the United States Supreme Court, or resulted in a decision based on
an unreasonable determination of the facts in light of the evidence presented in the state court
proceeding. Her application for federal habeas corpus relief is thus without merit.
27
19-40533.298

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 28 of 29 PageID #: 2684

VII. Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759, 773 (2017).
Instead, under 28 U.S.C. § 2253(c)(1), he must first obtain a certificate of appealability (“COA”)
from a circuit justice or judge. Id. Although Petitioner has not yet filed a notice of appeal, the
court may address whether he would be entitled to a certificate of appealability. See Alexander v.
Johnson, 211 F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate
of appealability because “the district court that denies a petitioner relief is in the best position to
determine whether the petitioner has made a substantial showing of a denial of a constitutional
right on the issues before the court. Further briefing and argument on the very issues the court has
just ruled on would be repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution
of his constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The
Supreme Court recently emphasized that the COA inquiry “is not coextensive with merits analysis”
and “should be decided without ‘full consideration of the factual or legal bases adduced in support
of the claims.’” Buck, 137 S. Ct. 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[w]hen the
district court denied relief on procedural grounds, the petitioner seeking a COA must further show
that ‘jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.’” Rhoades v. Davis, 852 F.3d 422, 427 (5th Cir. 2017) (quoting Gonzalez v. Thaler, 565
U.S. 134, 140-41 (2012)).

28
19-40533.299

Case 2:17-cv-00216-JRG-RSP Document 19 Filed 06/15/18 Page 29 of 29 PageID #: 2685

Here, Hudson failed to present a substantial showing of a denial of a constitutional right or
that the issues she has presented are debatable among jurists of reason. She also failed to
demonstrate that a court could resolve the issues in a different manner or that questions exist
warranting further proceedings. Accordingly, she is not entitled to a certificate of appealability.
RECOMMENDATION
For the foregoing reasons, it is recommended that the above-styled application for the writ
of habeas corpus be dismissed with prejudice. It is further recommended that Petitioner Hudson
be denied a certificate of appeal sua sponte.
Within fourteen (14) days after receipt of the Magistrate Judge's Report, any party may
serve and file written objections to the findings and recommendations contained in the Report.
A party's failure to file written objections to the findings, conclusions and
recommendations contained in this Report within fourteen days after being served with a copy
shall bar that party from de novo review by the district judge of those findings, conclusions and
recommendations and, except on grounds of plain error, from appellate review of unobjected-to
factual findings and legal conclusions accepted and adopted by the district court. Douglass v.
United Servs. Auto Ass'n., 79 F.3d 1415, 1430 (5th Cir. 1996) (en banc).
SIGNED this 15th day of June, 2018.

__
___
_ __
______
_____________
__
_ ______
_____________
____________________________________
ROY S. PAYNE
PAY
AYNE
AY
UNITED STATES MAGISTRATE JUDGE

29
19-40533.300

APPENDIX TAB B:
MAY 10, 2019 U.S. DISTRICT COURT’S
ORDER OF DISMISSAL
AND FINAL JUDGMENT
(Fifth Cir. ROA.331-333)

Case 2:17-cv-00216-JRG-RSP Document 24 Filed 05/10/19 Page 1 of 2 PageID #: 2716

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
CYNTHIA A. HUDSON, #1696397

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 2:17cv216

ORDER OF DISMISSAL
Petitioner Cynthia Ann Hudson, through counsel, filed this petition for writ of habeas
corpus under 28 U.S.C. § 2254 challenging her Cass County conviction. The cause of action was
referred to the United States Magistrate Judge, the Honorable Judge Roy S. Payne, for findings of
fact, conclusions of law, and recommendations for the disposition of the petition.
Judge Payne issued a Report, (Dkt. #19), recommending that Petitioner’s federal habeas
petition should be dismissed, with prejudice. Judge Payne also recommended that she be denied
a certificate of appealability sua sponte. Petitioner, through counsel, has filed timely objections,
(Dkt. #21).
The court has conducted a careful de novo review of record and the Magistrate Judge’s
proposed findings and recommendations. See 28 U.S.C. §636(b)(1) (District Judge shall “make a
de novo determination of those portions of the report or specified proposed findings or
recommendations to which objection is made.”). Upon such de novo review, the court has
determined that Report of the United States Magistrate Judge is correct and Petitioner’s objections
are without merit. Accordingly, it is
ORDERED that Petitioner’s objections, (Dkt. #21), are overruled. The Report of the
United States Magistrate Judge, (Dkt. #19), is ADOPTED as the opinion of the District Court. It
is also

1
19-40533.331

Case 2:17-cv-00216-JRG-RSP Document 24 Filed 05/10/19 Page 2 of 2 PageID #: 2717

ORDERED that the above-styled habeas petition is DISMISSED with prejudice. Further,
it is
ORDERED that Petitioner is also DENIED a certificate of appealability sua sponte.
Finally, it is
ORDERED that any and all motions which may be pending in this civil action are hereby
DENIED.
So ORDERED and SIGNED this 10th day of May, 2019.

____________________________________
________________________________
RODNEY
DNEY GILSTRAP
GILS
STRAP
UNITED
JUDGE
ITED STATES
STATE
ES DISTRICT JUD

2
19-40533.332

Case 2:17-cv-00216-JRG-RSP Document 25 Filed 05/10/19 Page 1 of 1 PageID #: 2718

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
CYNTHIA A. HUDSON, #1696397

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 2:17cv216

FINAL JUDGMENT
The court having considered Petitioner’s case and rendered its decision by opinion issued
this same date, it is hereby ORDERED that Petitioner’s case is DISMISSED with prejudice.
So ORDERED and SIGNED this 10th day of May, 2019.

____________________________________
________________________________
RODNEY
DNEY GILSTRAP
GILS
STRAP
UNITED
JUDGE
ITED STATES
STATE
ES DISTRICT JUD

1
19-40533.333

APPENDIX TAB C:
AUGUST 14, 2020 FIFTH CIRCUIT
ORDER BY SINGLE JUDGE DENYING
CERTIFICATE OF APPEALABILITY

Case: 19-40533

Document: 00515528382

Page: 1

Date Filed: 08/14/2020

United States Court of Appeals
for the Fifth Circuit
No. 19-40533
Cynthia Ann Hudson,

A True Copy
Certified order issued Aug 14, 2020

Clerk, U.S. Court of Appeals, Fifth Circuit

Petitioner—Appellant,
versus
Lorie Davis, Director, Texas Department of Criminal
Justice, Correctional Institutions Division,
Respondent—Appellee.
Appeal from the United States District Court
for the Eastern District of Texas
ORDER:
Cynthia Ann Hudson, Texas prisoner # 1696397, was convicted after
a jury trial of capital murder and sentenced to life imprisonment without the
possibility of parole. Hudson v. State, 449 S.W.3d 495, 496-97 (Tex. Crim.
App. 2014).
She now seeks a certificate of appealability (COA) to appeal the
district court’s denial of her 28 U.S.C. § 2254 application challenging these
convictions. Before this court, Hudson contends that her trial counsel
rendered ineffective assistance by failing to request a jury charge or
instruction on the lesser-included offense of felony murder, failing to
investigate and raise as a possible defense that the child victim suffered from

Case: 19-40533

Document: 00515528382

Page: 2

Date Filed: 08/14/2020

No. 19-40533

reactive attachment disorder and to introduce into evidence testimony that
the child exhibited the characteristics and behaviors associated with reactive
attachment disorder, and failing to have certain evidence submitted for DNA
testing and failing to file a written motion for a continuance after counsel’s
oral motion for continuance for DNA testing was denied. To the extent that
Hudson also asserts that the state habeas court had an obligation to permit
her to attend the evidentiary hearing on her postconviction application, this
argument is not cognizable in a § 2254 proceeding. See Moore v. Dretke, 369
F.3d 844, 846 (5th Cir. 2004).
To obtain a COA, Hudson must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel,
529 U.S. 473, 483 (2000). Because the district court rejected her ineffective
assistance claims on the merits, Hudson “must demonstrate that reasonable
jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.” Slack, 529 U.S. at 484. She has failed to make the
requisite showing. Accordingly, Hudson’s motion for a COA is DENIED.

____/s/ Jennifer Walker Elrod______
JENNIFER WALKER ELROD
UNITED STATES CIRCUIT JUDGE

2

APPENDIX TAB D:
SEPTEMBER 22, 2020 FIFTH CIRCUIT
ORDER DENYING MOTION FOR
RECONSIDERATION BY
THREE-JUDGE PANEL

Case: 19-40533

Document: 00515574955

Page: 1

Date Filed: 09/22/2020

United States Court of Appeals
for the Fifth Circuit
___________
No. 19-40533
___________
Cynthia Ann Hudson,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.
______________________________
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 2:17-CV-216
______________________________
Before Clement, Elrod, and Haynes, Circuit Judges.
Per Curiam:
A member of this panel previously DENIED a certificate of
appealability.

The panel has considered Appellant's motion for

reconsideration.
IT IS ORDERED that the motion is DENIED.

APPENDIX TAB E:
JUNE 22, 2016 ORDER FROM
COURT OF CRIMINAL APPEALS OF TEXAS
REMANDING TO STATE HABEAS COURT
FOR EVIDENTIARY HEARING

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-84,809-01

EX PARTE CYNTHIA ANN HUDSON, Applicant

ON APPLICATION FOR A WRIT OF HABEAS CORPUS
CAUSE NO. 2009F00005 IN THE 5TH DISTRICT COURT
FROM CASS COUNTY

Per curiam.
ORDER
Pursuant to the provisions of Article 11.07 of the Texas Code of Criminal Procedure, the
clerk of the trial court transmitted to this Court this application for a writ of habeas corpus. Ex parte
Young, 418 S.W.2d 824, 826 (Tex. Crim. App. 1967). Applicant was convicted of capital murder
and sentenced to life imprisonment. The Sixth Court of Appeals affirmed her conviction in Hudson
v. State, 415 S.W.3d 891, 897 (Tex. App.—Texarkana 2013), aff’d, 449 S.W.3d 495 (Tex. Crim.
App. 2014).
Applicant contends that her trial counsel rendered ineffective assistance because counsel
failed to request a jury instruction on the lesser included offense of felony murder. Applicant also
alleges that counsel failed to investigate and present evidence regarding the primary witnesses’ and

2
deceased’s psychological state; namely, the syndrome known as Reactive Attachment Disorder
(RAD).
Applicant has alleged facts that, if true, might entitle her to relief. Strickland v. Washington,
466 U.S. 668 (1984); Ex parte Patterson, 993 S.W.2d 114, 115 (Tex. Crim. App. 1999). In these
circumstances, additional facts are needed. Counsel has provided an affidavit. However, it is this
Court’s opinion that more information is needed before this Court can render a decision on the
aforementioned grounds for review, and because this Court cannot hear evidence, Ex parte
Rodriguez, 334 S.W.2d 294, 294 (Tex. Crim. App. 1960), the trial court is the appropriate forum.
The trial court may use any means set out in TEX . CODE CRIM . PROC. art. 11.07, § 3(d).
It appears that Applicant is represented by counsel. The trial court shall determine whether
Applicant is represented by counsel, and if not, whether Applicant is indigent. If Applicant is
indigent and wishes to be represented by counsel, the trial court shall appoint an attorney to represent
Applicant at the hearing. TEX . CODE CRIM . PROC. art. 26.04.
The trial court shall make findings of fact as to whether counsel was following his client’s
commands by not requesting the instruction on the lesser included offense of felony murder. The
trial court also shall make findings of fact as to whether counsel’s failure to request an instruction
on the lesser included offense of felony murder was deficient or was based on reasonable trial
strategy. If the trial court finds counsel did not have a reasonable trial strategy for failing to object
to the jury charge, then the court shall determine whether Applicant was prejudiced under the second
prong of Strickland. The trial court shall make findings of fact as to whether counsel conducted an
independent investigation into the RAD syndrome. If the trial court finds that counsel did not
conduct an investigation into the RAD syndrome, then the court shall determine whether counsel’s

3
failure to investigate amounts to deficient performance. The trial court shall also make any other
findings of fact and conclusions of law that it deems relevant and appropriate to the disposition of
Applicant’s claim for habeas corpus relief.
This application will be held in abeyance until the trial court has resolved the fact issues. The
issues shall be resolved within 90 days of this order. A supplemental transcript containing all
affidavits and interrogatories or the transcription of the court reporter’s notes from any hearing or
deposition, along with the trial court’s supplemental findings of fact and conclusions of law, shall
be forwarded to this Court within 120 days of the date of this order. Any extensions of time shall
be obtained from this Court.

Filed: June 22, 2016
Do not publish

APPENDIX TAB F:
DECEMBER 8, 2016 TEXAS STATE
HABEAS COURT’S FINDINGS OF FACT
AND CONCLUSIONS OF LAW AND
DENIAL OF MOTION FOR DNA TESTING
(Fifth Cir. ROA.2609-2618)

Case 2:17-cv-00216-JRG-RSP Document 12-19 Filed 08/10/17 Page 4 of 14 PageID #:
2473

·.

.

.

.f.IU:o FOP. RE:cnr.:·r;·

COURT OF CRIMINAL APPEALS NO. WR-84,§0~0l CC~-'N -;- 'i, ; ::.·. . ·~
TRIAL CAUSE NO. 2009F00005-A

· lUJb DEC -8 p 11: 50 .
IN THER~~lflfE~~g~RT .

§
§
§
§
§

EX PARTE

v.
CYNTHIA ANN HUDSON

D;S·r r-;ICT l':i ; :; "
OF CASS COUNTY; TEXAS

.,.,,

' - - - - - D Ef' 1JTY
S'h JUDICIAL DISTRICT
IJ

FINDINGS OFFACT AND CONCLUSIONS OF LAW AND
DENIAL OF MOTION FOR DNA TESTING

On this day, the Court considered Applicant's Application for Writ of Habeas Corpus and
Supplemental Application for Writ of Habeas Corpus,

fi~cd

pursuant to art. 11.07, Texas Code of

Criminal Procedure. Having reviewed Applicant's Application and Supplemental Application,
together with Memorandums in Support of each, the applicable law, Respondent's Original
Answer, together with Affidavit of trial counsel, Reply to Answer of the State of Texas and
Request for an Evidentiary Hearing, Amended Affidavit of trial counsel and the evidence
presented at the evidentiary hearing, and the Record, the Court makes the following Findings of
Fact and Conclusions of Law.
I.

:

BACKGROUND
1.

Following a jury trial in this matter, Applicant was found guilty of the offense of

Capital Murder and was th~reaftcr sentenced to a tcnn of life without parole in the Texas
'

.

Department of Criminal Justice,. Institutional Division.
'

2.

Applicant appealed_her conviction to the Sixth Court of Appeals, which reversed

her conviction based o~ its .~oldi"g that there was evidence raising a jury question on whether
she acted recklessly in
·•

~ausing

.

tl}c victim's death and that the trial court harmfully erred in

.

failing to instruct the jury on the l ~sser-included offense of manslaughter. Hudson v. State, 366
W.W. 3d 878 (Tex. App.- T~xarkana 2012, rev'd by, 394 S.W.3d 522 (Tex. Crim. App. 2013)).

19-40533.2609

Case 2:17-cv-00216-JRG-RSP Document 12-19 Filed 08/10/17 Page 5 of 14 PageID #:
2474

3.

The Texas Court of Criminal Appels subsequently reversed and remanded, ruling

that the Sixth Court of Appeals should have examined potential offenses, lying between the
charged offense of capital murder and the requested offense of manslaughter, to determine if
such potential offenses were, in truth, immediate lesser-included offenses for which the mental
state was consistent with the reckless mental state Applicant claimed qualified for the
manslaughter instruction. Hudwn v. Stale. 394 S.W.3d 522 (Tex. Crim. App. 2013).
4.

On remand, the Sixth Court of Appeals affirmed the judgment of the trial court on

or about May I I, 20 12, holding that because there was at least one such intennediate lesserincluded offense established by the same evidence, Applicant was not entitled to an instruction
on manslaughter. Hudson v. State, 415 S.W.3d 891 (Tex. App. -Texarkana 2013 , a.ffdby449
S.W.3d 495 (Tex. Crim. App: 20!4).
5.

Applicant filed a Petition for Discretionary Review, and the judgment was

affinncd on December 10,2014. Hudson v. State, 449 S.W.3d 495 (Tex. Crim. App. 2014).
he~

Application for Writ of Habeas Corpus.

6.

Applicant filed

7.

The State of Texas filed its Original Answer, together with trial counsel 's

affidavit.
8.

Applicant filed her Reply to Answer of the State of Texas and Request for an

Evidentiary Hearing, wherei~.it responded to the Affidavit of trial counsel.
. 9.

Thereafter,

pur~uant

to an Order of the trial court, trial counsel fi led an amended

affidavit.
I0.

The Court. he~d an evidentiary hearing on September 1, 2016.

II.

Trial counsel has practiced law for forty-one years .

.

2009FOOOOS-A Findings or' Fad and Conclusions of Law
Page 2

19-40533.2610

Case 2:17-cv-00216-JRG-RSP Document 12-19 Filed 08/10/17 Page 6 of 14 PageID #:
2475

12.

For the majority of the time trial counsel has practiced· law, a significant portion

ofhis practice has b~en eriminallaw.

LEGAL STANDARD
13.

To

obtain habeas corpus relief for ineffective assistance of counsel under the

standards set forth in Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed. 2d 674
(1984), an applicant must show that counsel's performance "was deficient and that a probability
exists, sufficient to undermine our confidence in the result, that the outcome would have been
different but for counsel's deficient performance." Ex Parte White, 160 S.W.3d 46, 49 (Tex.
Crim. App. 2004).
14.

Moreover, "applicant must overcome the 'strong presumption that counsel's

conduct fell within the wide range of professional assistance."' Ex Parte Chandler, 182 S. W.3d
.

I

.

350, 354 (Tex. Crim. App. 2005).
15.

"(S]tratcgic choices made after thorough investigation of the law and facts

relevant to plausible optio?s are

yi~.ually

unchallengable." Strickland, 466 U.S. at 690.

INEFFECTIVE ASSISTANCE OF COUNSEL FOR FAILURE TO REQUEST
INSTRUCTION ON LESSER INCLUDED OFFENSE OF FELONY MURDER
16.

The jury charge in this case, in addition to a charge for capital murder, also

included instructions on murder and injury to a child.
I 7.
18.

A "benefit of the doubt" instruction was given.
'Applicant requested but was refused an instruction on manslaughter, which was

the subject of her appeal and. tier Peiition for Discretionary Review.
19.

In its opinio;,, the Court of Criminal Appeals stated "although Appellant may

.

.

have been · entitled to a di fferent lesser-included-offense instruction if she had requested one,

2009fOOOOS-A findings of fact and Conclusions of Law

Page3

I

I

•

19-40533.2611

Case 2:17-cv-00216-JRG-RSP Document 12-19 Filed 08/10/17 Page 7 of 14 PageID #:
2476

e·

such as felony murder, Appellant made no such request, and that 1ssue is not before us."

Hudson, 449 S.W.3d at500.
20.

Applicant now contends trial counsel was ineffective for not requesting an

instruction on the lesser-included offense of felony murder.
21.

Trial counsel contends that even if he felt Applicant was entitled to numerous

lesser-included offense instructions, he wouldn' t have necessarily requested them all. Affidavit

of Trial Counsel, February 24, 2016, p. I.
22.

Felony murder, based upon injury to a child, did not fit with the defense theory at

trial. /d.
23.

Trial counsel believed that had Applicant been given the manslaughter instruction

requested, but not a felony murder instruction, it could have forced the jury into a manslaughter
finding as opposed to a higher punishment level finding. /d.; Record of Evidentiary Hearing, p.

10, 20-21.
24.

The d~cision to rcq~est only the manslaughter instruction was trial strategy.

25.

Applicant had num~rous and strong instructions at trial with regard to every fact

and level of the trial procedure, many of which were contrary to trial counsel's advice.
•

26.

I

Appl_ic_ant was adat"J!ant she would not admit to any acts underlying the offense,

and accordingly, refused any acti~n at trial that she interpreted as an admission. Affidavit ofTrial

Counsel, February 24, 2016, p. 2; Record C?f Evidential)' Hearing, p. 9- I l , 20-21.
27.

The trial court fin9s that trial counscl was not deficient for not requesting an

instruction on the lesser-included
. . offense of felony murder, which would have been contrary to
trial strategy and th~ Defcndant's _position at trial regarding the facts.

2009FOOOOS-A Findings of Fact ·and Conclusions of Law

Page4

.'

19-40533.2612

Case 2:17-cv-00216-JRG-RSP Document 12-19 Filed 08/10/17 Page 8 of 14 PageID #:
2477

No relief should be granted Applicant, even if trial counsel's failure to request a

28.

felony murder instruction was deficient, because as the Court of Criminal Appeals affirmed,
"Appellant was not entitled to a lesser-included instruction on manslaughter" because "Appellant
cannot prove that she is guilty of only manslaughter.. ." Hudron, supra, 449 S. W.Jd at 498. The
Sixth Court of Appeals and the Court of Criminal Appeals did not hold that Applicant was not
entitled to the lesser included offense of manslaughter because trhtl counsel failed to request
felony murder also, but rather because even if both had been requested, manslaughter could not
properly have been given. ld., at 499.
29.

In a case in which the State does not seck the death penalty, Capital Murder is

punishable by life in prison without parole.
30.

Murder, charged by the tria) court, and felony murder, not requested by Defendant

or charged. by the trial court, are both offenses of the first degree and carry the same range of

.

possible punishment.
.

.

Mur~er.

3 I.

I

is punish.ablc by imprisonment for life or any term of not more tban 99
:

years or less than 5 years. Felony murder is also punishable by imprisonment for life or any term

.

.

of not more than 99 years or less than 5 years.
32.

Even if tr\al counsel had been deficient in failing to request an instruction on the

lesser included offense of felony murder, a tjnding this trial court docs not make, a probability
!

does not exist, suftici.ent to
been different but for

u~1dem1in e

c~>Unscl 's

con lidcncc in the result, that the outcome would have

deficient performance. The jury had the opportunity to find

Applicant guilty of .murder,
. a first degree felony, which would have been punishable by
imprisonment for life or any tenn of not more than 99 years or less than 5 years, the same
punishment range for felony murder, but elected not to. Therefore, Applicant was not harmed,
I

•

2009F00005-A Findings of Fact and Conclusions of Law
PageS

19-40533.2613

Case 2:17-cv-00216-JRG-RSP Document 12-19 Filed 08/10/17 Page 9 of 14 PageID #:
2478

and cannot show harm, by trial counsel's failure to request the lesser included offense of felony
murder, or trial counsel's failure to request felony murder and manslaughter. The trial court
therefor recommends denial of the Application for Writ of Habeas Corpus on this ground.

INEFFECTIVE ASSISTANCE OF COUNSEL FOR FAILURE TO
INVESTIGATE AND PRESENT RELEVANT EVIDENCE REGARDING
PRIMARY WITNESSES' ANO DECEASED'S PSYCHOLOGICAL STATE
33.

Applicant contends that her defense at trial was that she did not do any of the acts

which resulted in the death of the victim, contrary to two adopted children who testified to her
commission of the acts. She contends they lied.
34.

Applicant contends that despite being requested to investigate the adopted

children's psychological problems and their manifestations, trial counsel did not conduct an
independent invcstigati~n into Reactive Attachment Disorder ("RAD"), thereby leaving his
client unsupported.
35.

Trial counsel testified he did not fail to investigate RAD. Affidavit of Trial

Counsel, May 20, 2016, p. 2. He reviewed materials presented by Defendant's husband, books
and materials o~ tl1c subje¢t of RAD syndrome, and discussed RAD syndrome and potential
i

f

f

••

;

••

experts with Appli~af!t. /d.; Rec:ord of Evidentiary Hearing, p. 26-27, 30. Trial counsel also
discussed RAD witl~ Doris Hudson. See,~,~ 41 - 45 below.
36.

-r:here. had not been a prior medical diagnosis of RAD syndrome with regard to

Applicant's adopted children, ,s o whether they had it was speculative. Record of Evidenti01y

Hearing, p. 28~ 30.
37.

To ~he extent ~ppl.icant contends trial counsel should have investigated RAD

syndrome as t~. tl:c victim, RAD syndrome did not fit within the defense strategy because

2009F00005-A Finding~ of Fact and Conclusion!~ of Law
Page 6

19-40533.2614

Case 2:17-cv-00216-JRG-RSP Document 12-19 Filed 08/10/17 Page 10 of 14 PageID #:
2479

Applicant's defense was that she was not involved. Affidavit ofTrial Counsel, May 20, 2016, p.
2; Record ofEvidentimy Hearing, p. 9-11, 20-21.

38.

Trial counsel states he made a conscious decision to avoid the RAD syndrome

issue for fear of providing jurors with a potential motive, assuming it would be admissible.
Record ofEvidentiary Hearing, p . 29-31.

39.

The decision to avoid the RAD syndrome issue was trial strategy. Affidavit of

Trial Counsel, May 20, 2016, p. 2; Record of Evidentimy Hearing, p. 29-31. ·

Applicant did not object or instruct trial counsel to act otherwise. Affidavit of Trial

40.

Counsel, May 20,2016, p. 2.

41 .

Doris Hudson is Applicant's sister-in-law and is a licensed clinical social worker,

with a Master's Degree in social w~rk. Record of Evidentiary Hearing, p. 33, 40-42.

.

.

42.

:

At the
j

~videntiary
•

RAD syndrome, not

•

•

,

hearing, Doris Hudson testified she is qualified to diagnose

•

~nly bc~ause

of her credentials but because of her experience having

worked with therapeutic foster care children and school-based services. Jd.
t

•

43.

•

• •

It was D~ris ~udson 's understanding, from trial counsel, that she may have been

called to testify at ttial, even though she ·was not subpoenaed. Record of Evidentiary Hearing, p.
'

.

I;

'

•

42-43.
44.

Doris Hudso7;1 . ~as present for trial, placed under the Rule and excluded from the
•

•

,

•

l,

I

.

courtroom during tr~al,asa potential witness. Jd.
45.
syndrome and

Ac<:ordin~ly,
had~

the C_ourt finds that trial counsel was infonned about RAD

witness available at trial under the Rule to testify as to RAD syndrome, but

chose not to call th~ witness. ~u~i.ng the trial as part of a reasonable trial strategy.

.

.

'

2009F00005-A Findings of FaCt and Conclusions of Law
Page 7

:. I•

19-40533.2615

Case 2:17-cv-00216-JRG-RSP Document 12-19 Filed 08/10/17 Page 11 of 14 PageID #:
2480

46.

Trial counsel investigated RAD syndrome, and therefore, there is no merit to

Applicant's contention trial counsel was ineffective for failing to investigate RAD syndrome.
The trial court therefor recommends denial of the Application for Writ of Habeas Corpus on this
ground.

SUPPLEMENTAL APPLICATION FOR WRIT OF HABEAS CORPUS
47.

On or about September 30, 2016, Applicant filed her Supplemental Application

for Writ of Habeas Corpus, together with Memorandum in Support, asserting her trial counsel
was inetl'ective for failing to ensure that evidentiary items he knew would be admitted into
evidence were subject to DNA testing and for failing to file a Motion for Continuance in writing,
despite there being adequate time to do so.
48.

In particular, the rake admitted into evidence was hot submitted for forensic

49.

Applic~nt con~ends

testing.
that trial counsd's failure to have the rake tested denied her

the ability to challenge its use during trial.
50.

As part of her Supplemental Application, Applicant moves the Court to order

I

.

•

I

DNA testing of the rake.
51.

The Motion for DNA Testing included in the Supplemental Application is

effectively a motion u~dcr Chapter 64 of the Texas Code of Criminal Procedure.
52.

Article 64.01(a-l) of the Texas Code ofCriminal Procedure requires a motion for

forensic DNA testing to be a~companied by an affidavit, sworn to by the convicted person,
.

,.

containing statement~ of fact in. support of the motion.

53.

The motion for DNA testing in question is not supported by Hudson's Affidavit

'

containing statcme.nts in support of the motion.
2009FOOOOS.:A ·Findings of Fact and Conclusions of Law

Page 8

19-40533.2616

)

Case 2:17-cv-00216-JRG-RSP Document 12-19 Filed 08/10/17 Page 12 of 14 PageID #:
2481

54.

Therefore, the Court denies the motion for DNA testing.

55.

Applicant contends that the child witness, Jeremiah's, test!mony that a rake was

used by Applicant to beat the victim could ''possibly" have been impeached had forensic testing
been conducted on the rake.
56.

In connection with the ineffective assistance of trial counsel claims, Applicant has

failed to specify whose DNA on the rake would have been relevant and what she contends the
results of DNA testing would have established.

57.

Trial counsel secured a forensic DNA expert.

58.

If the results of testing established the rake contained the victim's DNA, it would

have supported the child witness' testimony and strengthened the State's case. On the other hand,
the lack of the victim's DNA on the rake would not have established that the child witness did
not take the rake to Applicant, as he testified, and would not establish Applicant did not strike
the victim with the rake.
59.

Applica!}.t has failed to meet her burden that counsel was ineffective for failing to

have DNA testing of the rake.

.

'

60.

Trial counsel did not file a written motion for continuance, based on the rake not

·•

.

. . .

!

.

being submitted for testing.
61.

Failure. to file a,.written motion for continuance failed to preserve the issue for
I

•

f

\

"' '

appeal.
62.

Applicant has failed lo establish that had trial counsel filed a written motion for

continuance, preserving the iSSi.!C for appeal, the outcome would have been different.
63.

The . Dist:ic~ Clerk shall transmit to the Coury of Criminal Appeals the

following: . ~ certified copy of these Findings of Fact and Conclusions of Law; Trial Counsel's

1009F00005-A Findings· of Fad'and·Conclusions of Law
Page 9

.I .

19-40533.2617

..

•

..

e

Case 2:17-cv-00216-JRG-RSP Document 12-19 Filed 08/10/17 Page 13 of 14 PageID #:
2482

Amended Affidavit; the transcript of rhe Evidentiary Hearing and any documents not previously
forwarded for review by that Court as provided by law.

Signed this the 8111 day of December 2016.

4:;~~~16
Umqu.> DlgiiRI SrgMMt'&/dGJUIIIiiJ~

962903883837754100.1481236448776

Bill Miller, Judge Presiding
51h Judicial District Court
Cass County, Texas

••

•

0

2009f00005·A Findings of Fact und Concl usions of Law
Page 10

19-40533.2618

APPENDIX TAB G:

FEBRUARY 8, 2017 ORDER OF
TEXAS COURT OF CRIMINAL APPEALS
DENYING POST-CONVICTION WRIT
(Fifth Cir. ROA.2309)

Case 2:17-cv-00216-JRG-RSP Document 12-5 Filed 08/10/17 Page 1 of 1 PageID #: 2173

APPLICANT

CYNTHIA ANN HUDSON

APPLICATION NO. WR-84,809-01

APPLICATION FOR 11.07 WRIT OF HABEAS CORPUS
AFTER REMAND

ACTION TAKEN
DENIED WITHOUT WRITTEN ORDER ON FINDINGS OF TRIAL COURT WITHOUT
HEARING.

JUDGE

Page -8-



APPENDIX TAB H:

MARCH 1, 2017 ORDER OF
TEXAS COURT OF CRIMINAL APPEALS
DENYING RECONSIDERATION
ON COURT’S OWN MOTION
(Fifth Cir. ROA.2529-2530)

Case 2:17-cv-00216-JRG-RSP Document 12-11 Filed 08/10/17 Page 1 of 2 PageID #: 2393

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-84,809-01
EX PARTE CYNTHIA ANN HUDSON, Applicant
ON APPLICATION FOR A WRIT OF HABEAS CORPUS
CAUSE NO. 2009F00005 IN THE 5TH DISTRICT COURT
FROM CASS COUNTY
Per curiam.
ORDER
Pursuant to the provisions of Article 11.07 of the Texas Code of Criminal Procedure, the
clerk of the trial court transmitted to this Court this application for a writ of habeas corpus. Ex parte
Young, 418 S.W.2d 824, 826 (Tex. Crim. App. 1967). Applicant was convicted of capital murder
and sentenced to life imprisonment. The Sixth Court of Appeals affirmed her conviction. Hudson
v. State, No. 415 S.W.3d 891, 897 (Tex. App.—Texarkana 2013), aff’d, 449 S.W.3d 495 (Tex. Crim.
App. 2014).
Applicant contends that trial counsel rendered ineffective assistance. On February 8, 2017,
we denied this application, based on the trial court’s findings, without a hearing. Subsequently,
Applicant filed a request to reconsider, on our own motion, our ruling and alerting the Court that a

19-40533.2529

Case 2:17-cv-00216-JRG-RSP Document 12-11 Filed 08/10/17 Page 2 of 2 PageID #: 2394

2
habeas hearing was conducted by the trial court on September 1, 2016. Therefore, we reconsider the
original disposition, and deny this application, based on the trial court’s findings, after a hearing.
All other suggestions for reconsideration on the Court’s own initiative in Applicant’s motion are
denied.

Filed: March 1, 2017
Do not publish

19-40533.2530

